APPENDIX
APPENDIX A:

Judgment of the United States District Court for the Northern
District of Iowa, 1:18-cr-00082-001 June 21, 2019 ....................... 2

APPENDIX B:

Opinion of the Eighth Circuit Court of Appeals, 19-2405 January
12, 2021 .......................................................................................... 9

APPENDIX C:

Judgment of the Eighth Circuit Court of Appeals, 19-2405
January 12, 2021 ......................................................................... 20

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))

UNITED STATES DISTRICT COURT
Northern District of Iowa
UNITED STATES OF AMERICA
) JUDGMENT IN A CRIMINAL CASE
)
) Case Number: 0862 1:18CR00082-001
)
) USM Number: 17676-029
)

v.
DEANDRE JOSEPH WARREN




ORIGINAL JUDGMENT

Samuel Owen Cross

AMENDED JUDGMENT
Date of Most Recent Judgment:
Reason for Amendment:

Defendant’s Attorney

THE DEFENDANT:

 pleaded guilty to count(s) 1 of the Indictment filed on August 22, 2018
 pleaded nolo contendere to count(s)
which was accepted by the court.

 was found guilty on count(s)
after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section
21 U.S.C. §§ 841(a)(1),
841(b)(1)(C), and 860

Nature of Offense
Possession With Intent to Distribute Heroin Within
1,000 Feet of a School

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

 The defendant has been found not guilty on count(s)
 Count(s)

7

Offense Ended
08/04/2018

Count
1

of this judgment. The sentence is imposed pursuant to

is/are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name, residence, or
mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States Attorney of material changes in economic circumstances.
C.J. Williams
United States District Court Judge
Name and Title of Judge

Signature of Judge

June 21, 2019

June 20, 2019
Date of Imposition of Judgment

Date

Case 1:18-cr-00082-CJW-MAR Document 45 Filed 06/21/19 Page 1 of 7

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment — Page

DEFENDANT:
CASE NUMBER:

2

of

7

DEANDRE JOSEPH WARREN
0862 1:18CR00082-001

PROBATION



The defendant is hereby sentenced to probation for a term of:

IMPRISONMENT



The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:
188 months on Count 1 of the Indictment.



The court makes the following recommendations to the Federal Bureau of Prisons:
It is recommended that the defendant participate in the Bureau of Prisons' 500-Hour Comprehensive Residential Drug
Abuse Treatment Program or an alternate substance abuse treatment program.



The defendant is remanded to the custody of the United States Marshal.



The defendant must surrender to the United States Marshal for this district:





at





as notified by the United States Marshal.

a.m.



p.m.

on

.

The defendant must surrender for service of sentence at the institution designated by the Federal Bureau of Prisons:





before 2 p.m. on

.

as notified by the United States Marshal.
as notified by the United States Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 1:18-cr-00082-CJW-MAR Document 45 Filed 06/21/19 Page 2 of 7

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment—Page

DEFENDANT:
CASE NUMBER:

3

of

7

DEANDRE JOSEPH WARREN
0862 1:18CR00082-001

SUPERVISED RELEASE



Upon release from imprisonment, the defendant will be on supervised release for a term of:
6 years on Count 1 of the Indictment.

MANDATORY CONDITIONS OF SUPERVISION
1)

The defendant must not commit another federal, state, or local crime.

2)

The defendant must not unlawfully possess a controlled substance.

3)

The defendant must refrain from any unlawful use of a controlled substance.
The defendant must submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.



5)




6)



4)

The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future controlled substance abuse. (Check, if applicable.)

The defendant must cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
The defendant must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901,
et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location
where the defendant resides, works, and/or is a student, and/or was convicted of a qualifying offense. (Check, if applicable.)
The defendant must participate in an approved program for domestic violence. (Check, if applicable.)

The defendant must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

Case 1:18-cr-00082-CJW-MAR Document 45 Filed 06/21/19 Page 3 of 7

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment—Page

DEFENDANT:
CASE NUMBER:

4

of

7

DEANDRE JOSEPH WARREN
0862 1:18CR00082-001

STANDARD CONDITIONS OF SUPERVISION
As part of the defendant’s supervision, the defendant must comply with the following standard conditions of supervision. These
conditions are imposed because they establish the basic expectations for the defendant’s behavior while on supervision and identify the
minimum tools needed by probation officers to keep informed, report to the court about, and bring about improvements in the defendant’s
conduct and condition.
1)

The defendant must report to the probation office in the federal judicial district where the defendant is authorized to reside within
72 hours of the time the defendant was sentenced and/or released from imprisonment, unless the probation officer instructs the
defendant to report to a different probation office or within a different time frame.

2)

After initially reporting to the probation office, the defendant will receive instructions from the court or the probation officer
about how and when the defendant must report to the probation officer, and the defendant must report to the probation officer as
instructed. The defendant must also appear in court as required.

3)

The defendant must not knowingly leave the federal judicial district where the defendant is authorized to reside without first
getting permission from the court or the probation officer.

4)

The defendant must answer truthfully the questions asked by the defendant’s probation officer.

5)

The defendant must live at a place approved by the probation officer. If the defendant plans to change where the defendant lives
or anything about the defendant’s living arrangements (such as the people the defendant lives with), the defendant must notify
the probation officer at least 10 days before the change. If notifying the probation officer in advance is not possible due to
unanticipated circumstances, the defendant must notify the probation officer within 72 hours of becoming aware of a change or
expected change.

6)

The defendant must allow the probation officer to visit the defendant at any time at the defendant’s home or elsewhere, and the
defendant must permit the probation officer to take any items prohibited by the conditions of the defendant’s supervision that he
or she observes in plain view.

7)

The defendant must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer
excuses the defendant from doing so. If the defendant does not have full-time employment, the defendant must try to find fulltime employment, unless the probation officer excuses the defendant from doing so. If the defendant plans to change where the
defendant works or anything about the defendant’s work (such as the defendant’s position or the defendant’s job responsibilities),
the defendant must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, the defendant must notify the probation officer within 72
hours of becoming aware of a change or expected change.

8)

The defendant must not communicate or interact with someone the defendant knows is engaged in criminal activity. If the
defendant knows someone has been convicted of a felony, the defendant must not knowingly communicate or interact with that
person without first getting the permission of the probation officer.

9)

If the defendant is arrested or questioned by a law enforcement officer, the defendant must notify the probation officer within 72
hours.

10)

The defendant must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e.,
anything that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).

11)

The defendant must not act or make any agreement with a law enforcement agency to act as a confidential human source or
informant without first getting the permission of the court.

12)

As directed by the probation officer, the defendant must notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and must permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

13)

The defendant must follow the instructions of the probation officer related to the conditions of supervision.

Case 1:18-cr-00082-CJW-MAR Document 45 Filed 06/21/19 Page 4 of 7

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment—Page

DEFENDANT:
CASE NUMBER:

5

of

7

DEANDRE JOSEPH WARREN
0862 1:18CR00082-001

SPECIAL CONDITIONS OF SUPERVISION
The defendant must comply with the following special conditions as ordered by the Court and implemented by the United States Probation
Office:

1.

The defendant must submit the defendant’s person, property, house, residence, vehicle, papers, computers [as
defined in 18 U.S.C. § 1030(e)(1)], other electronic communications or data storage devices or media, or office,
to a search conducted by a United States Probation Officer. Failure to submit to a search may be grounds for
revocation of release. The defendant must warn any other occupants that the premises may be subject to
searches pursuant to this condition. The United States Probation Office may conduct a search under this
condition only when reasonable suspicion exists that the defendant has violated a condition of supervision and
that the areas to be searched contain evidence of this violation. Any search must be conducted at a reasonable
time and in a reasonable manner.

2.

The defendant must participate in a mental health evaluation. The defendant must complete any
recommended treatment program, and follow the rules and regulations of the treatment program. The
defendant must take all medications prescribed to the defendant by a licensed medical provider.

3.

The defendant must participate in an evaluation for anger management and/or domestic violence. The
defendant must complete any recommended treatment program, and follow the rules and regulations of the
treatment program.

4.

The defendant must participate in a substance abuse evaluation. The defendant must complete any
recommended treatment program, which may include a cognitive behavioral group, and follow the rules and
regulations of the treatment program. The defendant must participate in a program of testing for substance
abuse. The defendant must not attempt to obstruct or tamper with the testing methods.

5.

The defendant must not use or possess alcohol. The defendant is prohibited from entering any establishment
that holds itself out to the public to be a bar or tavern without the prior permission of the United States
Probation Office.

6.

The defendant must participate in the Remote Alcohol Testing Program during any period of the defendant’s
supervision. The defendant must abide by all rules and regulations of the Remote Alcohol Testing Program.
The defendant will be responsible for the cost of participation in the Remote Alcohol Testing Program.

7.

If not employed at a lawful type of employment as deemed appropriate by the United States Probation Office,
the defendant must participate in employment workshops and report, as directed, to the United States
Probation Office to provide verification of daily job search results or other employment related activities. In
the event the defendant fails to secure employment, participate in the employment workshops, or provide
verification of daily job search results, the defendant may be required to perform up to 20 hours of community
service per week until employed.

These conditions have been read to me. I fully understand the conditions and have been provided a copy of them. Upon a finding of a
violation of supervision, I understand the Court may: (1) revoke supervision; (2) extend the term of supervision; and/or (3) modify the
condition of supervision.

Defendant

Date

United States Probation Officer/Designated Witness

Date

Case 1:18-cr-00082-CJW-MAR Document 45 Filed 06/21/19 Page 5 of 7

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment — Page

DEFENDANT:
CASE NUMBER:

6

of

7

DEANDRE JOSEPH WARREN
0862 1:18CR00082-001

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

JVTA Assessment1
$0

Assessment
$ 100

Fine
$0

Restitution
$0



The determination of restitution is deferred until
after such determination.



The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.
Total Loss2

Name of Payee

TOTALS

$

Restitution Ordered

Priority or Percentage

$



Restitution amount ordered pursuant to plea agreement $



The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).



The court determined that the defendant does not have the ability to pay interest and it is ordered that:




the interest requirement is waived for the
the interest requirement for the



fine

 fine  restitution.
 restitution is modified as follows:

1

Justice for Victims of Trafficking Act of 2015, 18 U.S.C. § 3014.
Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.
2

Case 1:18-cr-00082-CJW-MAR Document 45 Filed 06/21/19 Page 6 of 7

AO 245 B&C (Rev. 01/17) Judgment and Amended Judgment in a Criminal Case
(NOTE: For Amended Judgment, Identify Changes with Asterisks (*))
Judgment—Page

DEFENDANT:
CASE NUMBER:

7

of

7

DEANDRE JOSEPH WARREN
0862 1:18CR00082-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A



Lump sum payment of $



B
C




100

due immediately, balance due

not later than
in accordance with

, or



C,



Payment to begin immediately (may be combined with
Payment in equal





E, or



C,




F below; or
D, or



(e.g., weekly, monthly, quarterly) installments of $

(e.g., months or years), to commence

D

D,

F below); or
over a period of

(e.g., 30 or 60 days) after the date of this judgment; or

Payment in equal

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E



Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F



Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant will receive credit for all payments previously made toward any criminal monetary penalties imposed.



Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.





The defendant must pay the cost of prosecution.
The defendant must pay the following court cost(s):
The defendant must forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court
costs.

Case 1:18-cr-00082-CJW-MAR Document 45 Filed 06/21/19 Page 7 of 7

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court

January 12, 2021

Mr. Samuel Owen Cross
FEDERAL PUBLIC DEFENDER'S OFFICE
Northern District of Iowa
Suite 290
222 Third Avenue, S.E.
Cedar Rapids, IA 52401-1542
RE: 19-2405 United States v. Deandre Warren
Dear Counsel:
The court has issued an opinion in this case. Judgment has been entered in accordance
with the opinion. The opinion will be released to the public at 10:00 a.m. today. Please hold the
opinion in confidence until that time.
Please review Federal Rules of Appellate Procedure and the Eighth Circuit Rules on postsubmission procedure to ensure that any contemplated filing is timely and in compliance with the
rules. Note particularly that petitions for rehearing and petitions for rehearing en banc must be
received in the clerk's office within 14 days of the date of the entry of judgment. Counsel-filed
petitions must be filed electronically in CM/ECF. Paper copies are not required. No grace period
for mailing is allowed, and the date of the postmark is irrelevant for pro-se-filed petitions. Any
petition for rehearing or petition for rehearing en banc which is not received within the 14 day
period for filing permitted by FRAP 40 may be denied as untimely.
Michael E. Gans
Clerk of Court
HAG
Enclosure(s)
cc:

Mr. Clerk, U.S. District Court, Northern Iowa
Ms. Elizabeth Dupuich
Ms. Emily K. Nydle
Mr. Deandre Joseph Warren
District Court/Agency Case Number(s): 1:18-cr-00082-CJW-1

Appellate Case: 19-2405

Page: 1

Date Filed: 01/12/2021 Entry ID: 4993321

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court

January 12, 2021

West Publishing
Opinions Clerk
610 Opperman Drive
Building D D4-40
Eagan, MN 55123-0000
RE: 19-2405 United States v. Deandre Warren
Dear Sirs:
A published opinion was filed today in the above case.
Counsel who presented argument on behalf of the appellant and appeared on the brief
was Samuel Owen Cross, AFPD, of Cedar Rapids, IA.
Counsel who presented argument on behalf of the appellee and appeared on the brief was
Elizabeth Dupuich, AUSA, of Cedar Rapids, IA.
The judge who heard the case in the district court was Honorable Charles J. Williams and
Honorable Mark A. Roberts, Magistrate Judge. The judgment of the district court was entered on
June 21, 2019.
If you have any questions concerning this case, please call this office.
Michael E. Gans
Clerk of Court
HAG
Enclosure(s)
cc: MO Lawyers Weekly

District Court/Agency Case Number(s): 1:18-cr-00082-CJW-1

Appellate Case: 19-2405

Page: 1

Date Filed: 01/12/2021 Entry ID: 4993321

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-2405
___________________________
United States of America
lllllllllllllllllllllPlaintiff - Appellee
v.
Deandre Joseph Warren
lllllllllllllllllllllDefendant - Appellant
____________
Appeal from United States District Court
for the Northern District of Iowa - Cedar Rapids
____________
Submitted: September 25, 2020
Filed: January 12, 2021
____________
Before LOKEN, SHEPHERD, and ERICKSON, Circuit Judges.
____________
LOKEN, Circuit Judge.
Deandre Warren pleaded guilty to possession with intent to deliver heroin
within 1,000 feet of a school, reserving his right to appeal the district court Order
denying his motion to suppress.1 The court then determined that Warren is a career

1

The Honorable C.J. Williams, United States District Judge for the Northern
District of Iowa, adopting in part and modifying in part the Report and

Appellate Case: 19-2405

Page: 1

Date Filed: 01/12/2021 Entry ID: 4993321

offender and sentenced him to 188 months imprisonment. On appeal, Warren argues
the court erred in not suppressing controlled substances found at the time of his arrest
as fruits of an unlawful seizure, and in determining he is a career offender.
Reviewing factual findings for clear error and questions of law de novo, we affirm.
See United States v. Gordon, 741 F.3d 872, 875 (8th Cir. 2013) (standard of review).
I. Fourth Amendment Seizure Issues
At 8:43 p.m. on August 4, 2018, Cedar Rapids Police Officers Ryan Harrelson
and Alexander Haas responded to a noise complaint regarding a house where Haas
knew there had been frequent calls of disturbances and drug activity. Parking in front
of the residence, the officers heard no noise as they exited their squad car. Harrelson
walked to the front of the house to ask its occupants about the complained-of noise.
Haas scouted nearby to determine other possible sources of the noise, standard
protocol in investigating noise complaints that have no apparent source.
Behind the house, Officer Haas saw a parked car with its headlights on in an
unlit alley facing the yard of the home, with a pair of hands sticking out the front
driver’s side window. Haas cautiously approached and explained to the driver he was
investigating a noise complaint. Cedric Jenkins was in the driver’s seat, Warren was
in the front passenger seat, and two women were in the back seat. Haas asked the
driver for identification. Jenkins replied they had just arrived, he had driven to the
house, and he did not have a driver’s license. Haas asked Jenkins to step out of the
vehicle while he verified Jenkins’s identity and investigated the traffic violation of
driving without a license. See Iowa Code § 321.174. At this point, Warren began to
exit the car. Officer Haas said, “Sir, can you just stay in there for me, please?”
Warren complied. Jenkins stepped out and spoke with Officer Haas.

Recommendation of the Honorable Mark A. Roberts, United States Magistrate Judge
for the Northern District of Iowa.
-2-

Appellate Case: 19-2405

Page: 2

Date Filed: 01/12/2021 Entry ID: 4993321

Haas radioed that he was behind the house with four persons and requested
backup. Officer Harrelson ended his conversation with the occupants and went
behind the house to assist Officer Haas. As Harrelson approached the passenger side
of the vehicle, he smelled marijuana emanating from the vehicle, covered by cigarette
smoke. Officer Otis also responded to the call for backup, arriving two minutes later.
As he approached the passenger side, Otis smelled cigarette smoke but not marijuana.
He talked with Warren, who was cooperative but nervous. Otis allowed Warren to
reach in the glove compartment for a cigarette. When Warren appeared to reach
under his left leg, Otis shined his flashlight down inside the front passenger door and
saw a baggie of marijuana tucked between the passenger seat and the door. Otis
removed Warren from the vehicle, handcuffed him, and put him in the back seat of
Haas’s squad car, which was now in the alley. Otis searched the rest of the parked
car, finding an additional bag of marijuana and a small bag of heroin.
In the squad car, Warren complained he was hot and claustrophobic. Haas let
him sit in the back with the door open or stand up. Officer Shuman arrived and
parked next to Haas’s squad car. Officers Shuman and Otis saw Warren stand up,
lean against the squad car, reach into his underwear, and make a “strange shaking
motion.” A baggie containing nine smaller baggies of marijuana and twenty two
baggies of heroin fell to the ground and was seized.
Warren moved to suppress all controlled substances seized on August 4, 2018.
The only issue on appeal is whether the drugs were fruits of an unlawful seizure when
Officer Haas instructed Warren to remain in the car without probable cause,
reasonable suspicion, or other sufficient basis. After a hearing, the magistrate judge
issued a lengthy Report and Recommendation that the motion to suppress be denied.
The district court adopted the report with modifications, concluding in a lengthy
Order that Warren was not seized when Officer Haas asked him to remain in the car.
Alternatively, even if the request was a directive constituting a seizure under United
States v. Mendenhall, 446 U.S. 544, 554-55 (1980), the court concluded that Officer
-3-

Appellate Case: 19-2405

Page: 3

Date Filed: 01/12/2021 Entry ID: 4993321

Haas was engaged in a permissible investigative stop of driver Jenkins’s traffic
violation, and legitimate officer safety concerns justified asking Warren to remain in
the car to preserve the status quo.
Warren argues that he was subject to an unlawful seizure when Officer Haas
asked him to “just stay in there for me, please.” As the district court recognized, a
person is seized within the meaning of the Fourth Amendment “when the officer, by
means of physical force or show of authority, terminates or restrains [the person’s]
freedom of movement.” Brendlin v. California, 551 U.S. 249, 254 (2007) (quotation
omitted). Seizure is an issue of law we review de novo. A seizure occurs “if, in view
of all of the circumstances surrounding the incident, a reasonable person would have
believed that he was not free to leave.” INS v. Delgado, 466 U.S. 210, 215 (1984).
Not every direction by an officer constitutes a seizure. See, e.g., United States v.
Valle Cruz, 452 F.3d 698, 706 (8th Cir. 2006) (officer telling vehicle driver to “sit
tight” did not effect a seizure). There is “a constitutionally significant distinction
between an official command and a request that may be refused.” United States v.
Vera, 457 F.3d 831, 835 (8th Cir. 2006), cert. denied, 549 U.S. 1230 (2007). Here,
the district court concluded that Haas’s statement, “Sir, can you just stay in there for
me, please,” was a request, not a command. Haas spoke to Warren with respect in a
voice that was polite, calm, and normal in volume and tone. When Warren complied,
Haas thanked him. Warren’s compliance did not convert the request into a command.
We agree.
Warren argues that a fair paraphrasing of Haas’s politely worded request when
Warren attempted to get out of the car was, “Don’t get out of the car,” as evidenced
by Haas’s testimony at the suppression hearing, “If he walked away, I would have
told him to stop.” But this post-hoc rephrasing of a request into the words of a
command disregards the fact that Haas’s statement and actions did not manifest an
intent to compel compliance. Haas’s subjective intent to stop Warren if he attempted
to walk away “is irrelevant except insofar as that may have been conveyed to
-4-

Appellate Case: 19-2405

Page: 4

Date Filed: 01/12/2021 Entry ID: 4993321

[Warren].” Mendenhall, 446 U.S. at 554 n.6. Haas’s words and manner left Warren
the choice whether to leave or stay. “There was no application of force, no
intimidating movement, no overwhelming show of force, no brandishing of weapons,
no blocking of exits, no threat, no command, not even an authoritative tone of voice.”
United States v. Drayton, 536 U.S. 194, 204 (2002). Warren chose to comply with
the request, presumably for an obvious reason having nothing to do with whether he
interpreted it as a request or a command: the most likely way to avoid discovery of
the baggies of heroin and marijuana on his person was to cooperate with an officer
while the officer completed a routine traffic investigation of driver Jenkins. It is pure
speculation how Haas would have responded if Warren, instead of complying, had
continued to exit the car or asked Haas whether he was free to leave. In these
circumstances, the words Haas used and his tone and manner in making a request to
cooperate are controlling. Thus, there was no seizure until Officer Otis discovered
controlled substances in the car and ordered Warren out of the car.
Alternatively, even if Officer Haas’s request is construed as a command that
passenger Warren remain in the parked vehicle, we agree with the district court that
officer safety concerns made this brief seizure objectively reasonable. Warren does
not dispute that Officer Haas had reasonable suspicion of a traffic violation that gave
him authority to detain and investigate driver Jenkins. See Terry v. Ohio, 392 U.S.
1, 21 (1968). But he argues Haas had no authority to detain passenger Warren.
During a lawful traffic stop, officers can take actions that are “reasonably
necessary to protect their personal safety and to maintain the status quo during the
course of the stop.” United States v. Hensley, 469 U.S. 221, 235 (1985). In
Maryland v. Wilson, 519 U.S. 408, 415 (1997), the Supreme Court held that an
officer may order passengers out of the car pending his investigation of the traffic
stop. “Danger to an officer from a traffic stop is likely to be greater when there are
passengers in addition to the driver in the stopped car.” Id. at 414. Likening this
situation to the detention of the occupants of a home during a warrant search, the
-5-

Appellate Case: 19-2405

Page: 5

Date Filed: 01/12/2021 Entry ID: 4993321

Court explained that “[t]he risk of harm is minimized if the officers routinely exercise
unquestioned command of the situation.” Id., quoting Michigan v. Summers, 452
U.S. 692 (1981). In Brendlin, the Court further noted it is “reasonable for passengers
to expect that a police officer at the scene of a crime, arrest, or investigation will not
let people move around in ways that could jeopardize his safety.” 551 U.S. at 258.
In United States v. Sanders, we held that an officer making a traffic stop may
“reinstate[] the status quo” by asking a passenger who left the vehicle to reenter. 510
F.3d 788, 791 (8th Cir. 2007), cert. denied, 553 U.S. 1013 (2008); cf. United States
v. Holt, 264 F.3d 1215, 1223 (10th Cir. 2001) (en banc) (asking passenger to remain
in vehicle); Rogala v. District of Columbia, 161 F.3d 44, 45 (D.C. Cir. 1998) (same);
United States v. Moorefield, 111 F.3d 10, 11 (3d Cir. 1997) (same).
Warren argues the situation at issue is not controlled by these cases because the
vehicle was already stopped when Haas began his traffic investigation and therefore
Warren had a heightened liberty interest in leaving the vehicle that outweighed the
government interest in securing the scene. As always, the Fourth Amendment issue
is whether, viewing the totality of the circumstances, Officer Haas was objectively
reasonable in asking Warren to remain in the car while Haas investigated the traffic
violation. See Arizona v. Johnson, 555 U.S. 323, 332 (2009). Viewed in this light,
we do not agree that the analysis is different because the vehicle was already parked.
Haas was investigating a noise complaint behind a house known for frequent
disturbances and drug-related activity. He encountered four persons in a parked car
with its lights on in an unlit alley. He approached cautiously and asked what they
were doing. When driver Jenkins admitted driving there without a license, Haas had
reasonable suspicion to detain Jenkins while he investigated a traffic violation that
would preclude Jenkins from driving away. Warren’s attempt to exit the car
presented a real risk to officer safety. It was dark and Haas was alone, outnumbered
four to one. If there was contraband in the car or other criminal activity afoot, he
faced a risk of violent encounter. See Johnson, 555 U.S. at 331; Maryland v. Pringle,
-6-

Appellate Case: 19-2405

Page: 6

Date Filed: 01/12/2021 Entry ID: 4993321

540 U.S. 366, 373 (2003). So he asked Warren to stay in the car and radioed for
backup assistance.
Traffic stops are inherently fraught with danger to police officers, “so an officer
may need to take certain negligibly burdensome precautions in order to complete his
mission safely.” Rodriguez v. United States, 135 S. Ct. 1609, 1616 (2015). The
safety of the officer “is both legitimate and weighty.” Pennsylvania v. Mimms, 434
U.S. 106, 109 (1977). Here, asking Warren to stay in the car was no more
burdensome than asking a passenger to exit the vehicle during a traffic stop, the
police action upheld in Wilson, 519 U.S. at 415. Reasonable actions at the scene of
an investigation to ensure safety and preserve the status quo require no probable
cause or reasonable suspicion. See Brendlin, 551 U.S. at 258. Moreover, if driver
Jenkins lacked a license and could not drive the vehicle away, it might be to the
officers’ and the passengers’ advantage if Warren was licensed and willing to take
control of the car so it need not be impounded, leaving its occupants stranded.
For these reasons, the Order denying Warren’s motion to suppress is affirmed.
II. Sentencing Issues
Warren argues the district court erred in determining he is a career offender
because his three prior Illinois drug convictions were not “controlled substance
offenses” under USSG § 4B1.2(b), and his prior Iowa conviction for Domestic
Assault with strangulation was not a “crime of violence” under § 4B1.2(a)(1).
Warren concedes that we rejected the first argument in United States v. Merritt, 934
F.3d 809, 811 (8th Cir. 2019), cert. denied, 140 S. Ct. 981 (2020), and the second
argument in United States v. Boleyn, 929 F.3d 932 (8th Cir. 2019), cert. denied, 140
S. Ct. 1128 (2020). As a panel, we are bound by these controlling decisions.
Accordingly, we need not consider the government’s alternative argument that any
error was harmless because the district court stated that if its career offender analysis
-7-

Appellate Case: 19-2405

Page: 7

Date Filed: 01/12/2021 Entry ID: 4993321

was wrong, “I would reach the same sentence under the 3553(a) factors.” See, e.g.,
United States v. McGee, 890 F.3d 730, 737 (8th Cir. 2018). Warren has preserved
these issues for en banc review.
The judgment of the district court is affirmed.
______________________________

-8-

Appellate Case: 19-2405

Page: 8

Date Filed: 01/12/2021 Entry ID: 4993321

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-2405
___________________
United States of America
Plaintiff - Appellee
v.
Deandre Joseph Warren
Defendant - Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the Northern District of Iowa - Cedar Rapids
(1:18-cr-00082-CJW-1)
______________________________________________________________________________
JUDGMENT

Before LOKEN, SHEPHERD and ERICKSON, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court, briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
January 12, 2021

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-2405

Page: 1

Date Filed: 01/12/2021 Entry ID: 4993325

Adopted April 15, 2015
Effective August 1, 2015
Revision of Part V of the Eighth Circuit Plan to Implement the Criminal Justice Act of
1964.
V. Duty of Counsel as to Panel Rehearing, Rehearing En Banc, and Certiorari
Where the decision of the court of appeals is adverse to the defendant in whole or in part, the
duty of counsel on appeal extends to (1) advising the defendant of the right to file a petition for
panel rehearing and a petition for rehearing en banc in the court of appeals and a petition for writ
of certiorari in the Supreme Court of the United States, and (2) informing the defendant of
counsel's opinion as to the merit and likelihood of the success of those petitions. If the defendant
requests that counsel file any of those petitions, counsel must file the petition if counsel
determines that there are reasonable grounds to believe that the petition would satisfy the
standards of Federal Rule of Appellate Procedure 40, Federal Rule of Appellate Procedure 35(a)
or Supreme Court Rule 10, as applicable. See Austin v. United States, 513 U.S. 5 (1994) (per
curiam); 8th Cir. R. 35A.
If counsel declines to file a petition for panel rehearing or rehearing en banc requested by the
defendant based upon counsel's determination that there are not reasonable grounds to do so,
counsel must so inform the court and must file a written motion to withdraw. The motion to
withdraw must be filed on or before the due date for a petition for rehearing, must certify that
counsel has advised the defendant of the procedures for filing pro se a timely petition for
rehearing, and must request an extension of time of 28 days within which to file pro se a petition
for rehearing. The motion also must certify that counsel has advised the defendant of the
procedures for filing pro se a timely petition for writ of certiorari.
If counsel declines to file a petition for writ of certiorari requested by the defendant based on
counsel's determination that there are not reasonable grounds to do so, counsel must so inform
the court and must file a written motion to withdraw. The motion must certify that counsel has
advised the defendant of the procedures for filing pro se a timely petition for writ of certiorari.
A motion to withdraw must be accompanied by counsel's certification that a copy of the motion
was furnished to the defendant and to the United States.
Where counsel is granted leave to withdraw pursuant to the procedures of Anders v. California,
386 U.S. 738 (1967), and Penson v. Ohio, 488 U.S. 75 (1988), counsel's duty of representation is
completed, and the clerk's letter transmitting the decision of the court will notify the defendant of
the procedures for filing pro se a timely petition for panel rehearing, a timely petition for
rehearing en banc, and a timely petion for writ of certiorari.

Appellate Case: 19-2405

Page: 1

Date Filed: 01/12/2021 Entry ID: 4993325

